              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report
The Department of Energy’s Review of
Export License Applications for China




DOE/IG-0723                                     April 2006
THE DEPARTMENT OF ENERGY’S REVIEW OF EXPORT
LICENSE APPLICATIONS FOR CHINA


TABLE OF
CONTENTS
              OVERVIEW

              Introduction and Objectives ……………………………              1

              Observations and Conclusions ………………………..             2


              DETAILS OF FINDINGS

              Background ………………………………………………. 3

              Energy Review of Licenses .......……….………………. 3

              Interagency Coordination …......……….……………….          4

              Observations …………………......……….……………..                4


              RECOMMENDATIONS ………………………………...                      5


              MANAGEMENT COMMENTS …………………………                       5


              INSPECTOR COMMENTS …………………………….                      5


              APPENDICES

              A. Scope and Methodology ……………………………                 6

              B. Status of Recommendations from Prior
                 National Defense Authorization Act Reports ….….   7

              C. Prior Export Control Related Reports ………..……      13

              D. Management Comments ……………………………                   14
Overview

INTRODUCTION     The National Defense Authorization Act (NDAA) for Fiscal Year
AND OBJECTIVES   2000 provides that beginning in the year 2000 and ending in the
                 year 2007, the President shall annually submit to Congress a report
                 by the Inspectors General of, at a minimum, the Departments of
                 Energy (Energy), Commerce (Commerce), Defense (Defense), and
                 State (State) of the policies and procedures of the United States
                 Government with respect to the export of technologies and
                 technical information with potential military application to
                 countries and entities of concern. The NDAA for Fiscal Year 2001
                 also requires the Inspectors General to include in each annual
                 report the status of the implementation or disposition of
                 recommendations that were set forth in previous annual reports.

                 The People’s Republic of China (China), which since 1997 has
                 included Hong Kong, is one of the world’s largest trading nations.
                 China’s trade includes the substantial import and export of
                 technologies. An interagency working group comprised of
                 representatives from the Offices of Inspector General (OIGs) for
                 Energy, Commerce, Defense, State, the Department of Homeland
                 Security, and the Central Intelligence Agency (CIA) selected the
                 export of sensitive U.S. technologies and technical information to
                 China as the topic for its 2006 review.

                 The objective of our inspection was to determine if Energy
                 appropriately participated in the export license review process to
                 control the export of critical technologies to China. Within
                 Energy, the Office of International Regimes and Agreements
                 (OIRA), which is part of the National Nuclear Security
                 Administration’s, Office of Defense Nuclear Nonproliferation, is
                 the primary entity responsible for export control issues and is the
                 focus of our review. To accomplish this objective, we examined:

                     •   Energy’s roles and responsibilities relevant to the review
                         of escalated export license applications regarding China.
                         Escalated export license applications are those applications
                         that were appealed to higher levels of agency review when
                         the reviewing agencies could not come to agreement after
                         their initial reviews; and

                     •   Coordination by Energy officials with other Federal
                         agencies regarding cases escalated to the dispute resolution
                         process.

                 Additionally, we reviewed the status of recommendations set forth
                 in previous Energy OIG reports on annual export control reviews
                 conducted pursuant to the NDAA for Fiscal Year 2000.

Page 1                                The Department of Energy’s Review of
                                      Export License Applications for China
OBSERVATIONS AND   We concluded that Energy appropriately participated in the export
CONCLUSIONS        license review process to control the export of critical technologies to
                   China. Specifically, we found that:

                   •   OIRA conducted reviews of all escalated export license
                       applications referred to them during Fiscal Year 2004 that were
                       relevant to China; and

                   •   OIRA effectively coordinated with the formal interagency
                       entities mandated by Executive Order 12981 for the conduct of
                       its license reviews.

                   We observed that access by Energy officials conducting license
                   reviews to end-user review information maintained by the
                   Lawrence Livermore National Laboratory (Livermore) could be
                   improved. We also observed that access by OIRA to intelligence
                   information within the Energy Office of Intelligence and
                   Counterintelligence (IN) has recently been enhanced.

                   Regarding the status of recommendations set forth in previous
                   Energy OIG reports on annual export control reviews conducted
                   pursuant to the NDAA for Fiscal Year 2000, we determined that 12
                   of the 15 recommendations have been closed. Details regarding
                   the recommendations can be found in Appendix B.

                   The Energy OIG has conducted numerous reviews related to the
                   topic of export controls. A listing of these reports is contained in
                   Appendix C.




Page 2                                               Observations and Conclusions
Details of Findings

BACKGROUND                           The principal legislative authorities governing the export control of
                                     nuclear-related, dual-use1 items are the Export Administration Act of
                                     1979 and the Nuclear Non-Proliferation Act of 1978. The provisions
                                     of the Export Administration Act have been updated by Executive
                                     Order, most recently by Executive Order 12981, which grants the
                                     Secretary of Commerce the authority to refer export license
                                     applications to other agencies for review and gives agencies such as
                                     Energy the authority to look at any export license application
                                     submitted to Commerce. This Executive Order also establishes the
                                     Operating Committee (OC) and the Advisory Committee on Export
                                     Policy (ACEP). This Executive Order stipulates that the OC
                                     examines all license applications in which the reviewing departments
                                     are not in agreement and that if a department disagrees with an OC
                                     decision, they may appeal to the ACEP for resolution.

                                     Energy’s export control efforts, as coordinated by OIRA, includes
                                     the review of licenses for nuclear, chemical, biological, and
                                     missile-related commodities. OIRA utilizes the expertise of
                                     Energy officials at headquarters and the Department’s field sites to
                                     conduct end-user reviews (analysis of intelligence information
                                     relevant to the final user of an item) and technical reviews
                                     (analysis of a specific item by a subject matter expert). In addition
                                     to reviewing licenses, OIRA participates in working level groups
                                     for licensing and nonproliferation activities that include China-
                                     related issues; represents Energy at meetings of the Nuclear
                                     Suppliers Group, an informal international regime that works to
                                     prevent the misuse of nuclear materials for military reasons; and
                                     leads an outreach effort that trains Federal officials at the nation’s
                                     borders on how to recognize proliferation items and potential
                                     weapons of mass destruction.

ENERGY REVIEW                        We found that Energy conducted reviews of all escalated export
OF LICENSES                          license applications relevant to China referred to them during
                                     Fiscal Year 2004.

                                     We and the OIG interagency group examined 102 cases relevant to
                                     China and Hong Kong that were addressed by the OC and/or
                                     ACEP during Fiscal Year 20042. We determined that Energy
                                     officials conducted required end-user reviews for each case.
                                     However, we found that the end-user review for one case was not

1
    Some controlled commodities are designated as “dual-use,” that is, goods and technologies that have both civilian
    and military uses. The U.S. Government designates some dual-use commodities as “nuclear dual-use” items,
    which are controlled for nuclear nonproliferation purposes.
2
    104 separate China cases were examined by either the OC and/or the ACEP in Fiscal Year 2004. Two of these
    104 cases were withdrawn by the applicant, resulting in a total of 102 cases analyzed by the OIG. Of these 102
    cases, three were reviewed by both the OC and ACEP in Fiscal Year 2004.

Page 3                                                                                     Details of Findings
               completed in time for the relevant OC meeting. Although the
               review was not timely, the results of that review did not alter the
               position already established by Energy and the other reviewing
               agencies or effect the processing of that application.

INTERAGENCY    Energy effectively coordinated with the formal interagency entities
COORDINATION   mandated by Executive Order 12981 for the conduct of its license
               reviews. Energy has participated in the OC and the ACEP since
               1965. The OC and the ACEP include senior officials from Energy,
               Commerce, Defense, and State, which are voting members, and the
               CIA, which is a non-voting member. We determined that Energy
               officials participated in the review of all 102 cases relevant to
               China and Hong Kong addressed by the OC and the ACEP in
               Fiscal Year 2004. Export control officials with Commerce,
               Defense, State, and the CIA advised that Energy coordinated with
               them on all export license applications, including those for China,
               and that Energy provided them with analysis relevant to the export
               license review process.

OBSERVATIONS   We observed that access by Energy officials conducting license
               reviews to end-user review information maintained by Livermore
               could be improved. Currently, technical reviewers must wait until
               an end-user review is completed by Livermore before being able to
               access this end-user information. Several field officials who
               perform technical reviews indicated that it would be an
               improvement if they could access end-user information at any time
               instead of waiting until the end-user review is completed.
               Livermore officials said that they are developing a new database
               that will allow any technical reviewers at Energy to have real-time
               access to end-user information. An OIRA official indicated that
               had this database been in place for the one late end-user review
               addressed above, that review would have likely been completed in
               time for the OC meeting. We believe that the implementation of
               this new Livermore database will help expedite Energy’s export
               license reviews.

               We also observed that access by OIRA to intelligence information
               within IN has recently been enhanced. Specifically, IN controls
               the access for Energy officials to Sensitive Compartmented
               Information (SCI), which includes intelligence information that
               can be used by OIRA to conduct their license reviews. During our
               review, OIRA officials advised that they could not access IN’s SCI
               computers or hand-carry SCI documents and relied upon: an IN
               employee who dedicated part of his time to OIRA efforts; field
               officials at IN’s Field Intelligence Elements; or other Federal
               agencies.

Page 4                                                       Details of Findings
                  An IN official informed us that based on established Energy policy
                  on the use of and access to SCI, only Federal Energy employees
                  that are part of IN can have direct access to SCI computers and be
                  able to hand-carry SCI documents. The official added, however,
                  that his office could arrange for OIRA-affiliated management and
                  operating contractor officials who are members of a Field
                  Intelligence Element, to access SCI at IN headquarters because
                  Field Intelligence Element members are managed by IN for
                  intelligence purposes.

                  We learned that IN had previously sponsored direct SCI access by
                  one OIRA-affiliated management and operating contractor
                  stationed at Energy headquarters, but that the relevant contract
                  ended in July 2005. In recognition of this problem and concurrent
                  with our review, in February 2006, IN management granted three
                  OIRA-affiliated management and operating contractors access to
                  IN and is processing them to have SCI computer and hand-carrying
                  access. We believe that this improved access should enhance
                  OIRA’s analysis of export control issues, including those relevant
                  to China. Because this type of arrangement between IN and OIRA
                  had lapsed before, we believe that actions need to be taken to
                  ensure that OIRA representatives continue to have access to SCI
                  computers and be able to hand-carry SCI documents.

RECOMMENDATIONS   We recommend that the Deputy Administrator, Defense Nuclear
                  Nonproliferation;

                  1. Expedite the development and implementation of the new
                     Lawrence Livermore National Laboratory database for
                     processing end-user reviews; and

                  2. Coordinate with the Director, Office of Intelligence and
                     Counterintelligence, to ensure personnel affiliated with the
                     Office of Defense Nuclear Nonproliferation who conduct
                     export license reviews have continual access to Sensitive
                     Compartmented Information computers and be able to hand-
                     carry Sensitive Compartmented Information documents.

MANAGEMENT        In comments on our draft report, management agreed with
COMMENTS          our report recommendations and will implement corrective actions.
                  These comments are included in their entirety at Appendix D.

INSPECTOR         We found management’s comments to be responsive to our report
COMMENTS          recommendations.




Page 5                                                    Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     We interviewed Federal and contractor Energy officials at
METHODOLOGY   headquarters and field facilities, including personnel who perform
              end-user reviews and technical reviews. We reviewed Energy and
              Commerce documentation for 102 export license applications to
              China and Hong Kong that were addressed by the Operating
              Committee and the Advisory Committee on Export Policy in Fiscal
              Year 2004. We also reviewed relevant export control regulations.

              As part of our review, we evaluated Energy’s implementation of
              the “Government Performance Results Act of 1993.” We did not
              identify any performance measure issues regarding the review of
              export license applications for China and Hong Kong.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 6                                               Scope and Methodology
Appendix B

                   STATUS OF RECOMMENDATIONS FROM PRIOR
                 NATIONAL DEFENSE AUTHORIZATION ACT REPORTS

Section 1204 of the NDAA for Fiscal Year 2001 amended Section 1402(b) of the NDAA for
Fiscal Year 2000 to require the specified Offices of Inspectors General (OIGs) to include in each
annual report the status of the implementation or other disposition of recommendations that have
been set forth in previous annual reports under Section 1402(b). To date, six reports have been
completed by the Energy OIG under this requirement. Two reports: “Inspection of Status of
Recommendations from the Office of Inspector General’s March 2000 and December 2001
Export Control Reviews,” INS-L-03-07, May 2003, and “Inspection of the Department of
Energy’s Role in the Commerce Control List and the U.S. Munitions List,” INS-O-01-03, March
2001, did not contain recommendations. The following is the status of the recommendations
from the other reports. Of 15 total recommendations, 12 have been closed.

“The Department of Energy’s Review of Chemical and Biological Export License
Applications,” DOE/IG-0682, March 2005:

Recommendation 1. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation, take appropriate action to ensure that Energy licensing officers have access to
the Department of Commerce’s Export Control Automated Support System (ECASS).

Energy management reported that Commerce promised to provide support to the office as
needed. Currently, new National Nuclear Security Administration (NNSA) staff are completing
new registration forms to receive their passwords. Energy management is awaiting response
from Commerce on the NNSA letter requesting training on accessing ECASS.

The Energy OIG determined that this recommendation should remain open until all corrective
actions are completed.

Recommendation 2. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation, take appropriate action to ensure that Energy licensing officers are properly
trained in the use of this system.

Energy management reported that Commerce promised to provide support to the office as
needed. Currently, new NNSA staff are completing new registration forms to receive their
passwords. Energy management is awaiting response from Commerce on the NNSA letter
requesting training on accessing ECASS.

The Energy OIG determined that this recommendation should remain open until all corrective
actions are completed.

“Contractor Compliance with Deemed Export Controls,” DOE/IG-0645, April 2004:

Recommendation 1. We recommended that the Director, Office of Security and Safety
Performance Assurance, expedite issuance of a draft unclassified foreign visits and assignments

Page 7                                                   Status of Recommendations from
                                                         Prior National Defense Authorization
                                                         Act Reports
Appendix B (continued)

Order 142.X that addresses training requirements and responsibilities for hosts of foreign
nationals.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the principal roles and responsibilities for hosts
of foreign national visitors and assignees. The Energy OIG determined that DOE Order 142.3
includes training requirements and responsibilities for hosts of foreign nationals.

The Energy OIG agreed to close this recommendation.

Recommendation 2. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation, ensure that export control guidance, including deemed export guidance, is
disseminated and is being consistently implemented throughout the Energy complex.

Energy management reported that the updated DOE “Guidelines on Export Control and
Nonproliferation” were undergoing review at Energy headquarters through August. In
September they were transmitted to the Department’s Executive Secretary for final review and
signature. Subsequently, DOE General Counsel (GC) performed a second review and presented
their comments in November, and the DOE Office of Nuclear Energy, Science, and Environment
(NE) also sent a comment. NNSA management is reviewing and coordinating comments with
GC and NE to finalize the Guidelines in January 2006. In the First Quarter of Fiscal Year 2006,
Energy management began developing elements of a training module to help strengthen
contractor compliance with deemed export controls. The goal of the training is to specifically
address the needs of employees serving as foreign national hosts who are actively initiating
visits. Energy management tasked a national laboratory with drafting a training program, which
was subsequently briefed in September 2005 to export compliance representatives from five sites
for comment. Comment incorporation was being finalized in the First Quarter of Fiscal Year
2006, with pilot implementation at a national laboratory planned for Second Quarter of Fiscal
Year 2006. In the Second Quarter of Fiscal Year 2006 work will commence on designing a
survey to gain insight of the export control programs at laboratories/sites with the goal of making
preliminary assessments in the Third Quarter of Fiscal Year 2006. Assuming the satisfactory
resolution of any management and operating contractual issues that may arise, on-site surveys
may begin as early as the Fourth Quarter of Fiscal Year 2006.

The Energy OIG determined that this recommendation should remain open until all corrective
actions are completed.

“Inspection of the Department of Energy’s Automated Export Control System,”
DOE/IG-0533, December 2001:

Recommendation 1. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with Commerce and Treasury to ensure access by
Energy to information within the Automated Export System regarding the purchase and/or



Page 8                                                   Status of Recommendations from
                                                         Prior National Defense Authorization
                                                         Act Reports
Appendix B (continued)

shipment of commodities under an approved export license, and develop guidelines for Energy’s
access to the information.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status.

The Energy OIG agreed to close this recommendation. The Energy OIG will continue to follow
up on these issues through the interagency OIG group.

Recommendation 2a. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with State to improve communications regarding review
of export license applications for munitions commodities.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status.

The Energy OIG agreed to close this recommendation. The Energy OIG will continue to follow
up on these issues through the interagency OIG group.

Recommendation 2b. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with State to ensure access by Energy to information
maintained by State regarding final disposition (i.e., approval/denial of license applications and
the purchase and/or shipment of commodities) of export license applications and develop
guidelines for Energy’s access to the information.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status.

The Energy OIG agreed to close this recommendation. The Energy OIG will continue to follow
up on these issues through the interagency OIG group.

“Inspection of the Department of Energy’s Export License Process for Foreign National
Visits and Assignments,” DOE/IG-0465, March 2000:

Recommendation 1. We recommended that the Acting Deputy Administrator for Defense
Nuclear Nonproliferation ensure that senior Energy officials work with senior Commerce

Page 9                                                   Status of Recommendations from
                                                         Prior National Defense Authorization
                                                         Act Reports
Appendix B (continued)

officials to assure clear, concise, and reliable guidance is obtained in a timely manner from
Commerce regarding the circumstances under which a foreign national’s visit or assignment to
an Energy site would require an export license.

Energy management was advised by the Commerce Assistant Secretary for Export
Administration that extensive guidance regarding compliance with the deemed export rule was
available on the Commerce Web site and that Commerce would continue to strengthen its
outreach training programs for Energy’s National Laboratories.

The Energy OIG agreed to close this recommendation.

Recommendation 2. We recommended that the Director, Office of Security and Emergency
Operations, ensure that a proposed revision of the Energy Notice concerning unclassified foreign
visits and assignments includes the principal roles and responsibilities for hosts of foreign
national visitors and assignees.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the principal roles and responsibilities for hosts
of foreign national visitors and assignees.

The Energy OIG agreed to close this recommendation.

Recommendation 3. We recommended that the Director, Office of Security and Emergency
Operations, include a requirement for Energy and Energy contractor officials to enter required
foreign national visit and assignment information in the Foreign Access Records Management
System, or a designated central data base, in a complete and timely manner.

Energy management reported that a new Energy-wide information system, the Foreign Access
Centralized Tracking System (FACTS), was developed and implemented. Energy further
advised that Draft Order 142.X includes a requirement for Energy sites to enter required foreign
national visit and assignment information into FACTS in a complete and timely manner.

Because Energy management’s corrective action addressed usage of FACTS by all Energy
Federal and contractor employees, the Energy OIG previously agreed to close this
recommendation and track this issue under recommendation 8.

Recommendation 4. We recommended that the Manager of Energy’s Oak Ridge Operations
Office ensure that requests for foreign national visits and assignments at the Oak Ridge site are
reviewed by the Y-12 National Security Program Office to assist in identifying those foreign
nationals who may require an export license in conjunction with the visit or assignment.

Energy management reported that to ensure requests for foreign national visits and assignments
at the Oak Ridge National Laboratory receive appropriate export license consideration, Oak
Ridge National Laboratory initiated a system of reviews. Under the system, requests are

Page 10                                                  Status of Recommendations from
                                                         Prior National Defense Authorization
                                                         Act Reports
Appendix B (continued)

reviewed by five separate disciplines (Cyber Security, Export Control, Classification,
Counterintelligence, and Security). In addition, requests associated with concerns are referred
for resolution to the Non-citizen Access Review Committee. Energy management further
reported that while each of the reviews can involve the National Security Program Office, the
Oak Ridge National Laboratory Export Control Officer is responsible for referring requests to
the National Security Program Office as necessary.

The Energy OIG agreed to close this recommendation.

Recommendation 5. We recommended that the Director, Office of Security and Emergency
Operations, ensure that the requirements in the revised Energy Notice for unclassified foreign
national visits and assignments are clearly identified and assigned to responsible officials or
organizations.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes clear identification of requirements for foreign
national visits and assignments, and identifies responsible officials and organizations.

The Energy OIG agreed to close this recommendation.

Recommendation 6. We recommended that the Acting Deputy Administrator for Defense
Nuclear Nonproliferation ensure that guidance issued by the Office of Nuclear Transfer and
Supplier Policy to advise hosts of their responsibilities regarding foreign nationals includes the
appropriate level of oversight to be provided by the host during the period of the visit or
assignment.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the principal roles and responsibilities for hosts
of foreign national visitors and assignees.

The Energy OIG agreed to close this recommendation.

Recommendation 7. We recommended that the Director, Office of Security and Emergency
Operations, revise the Energy policy regarding foreign national visits and assignments to ensure
that Energy sites are maintaining consistent information about foreign nationals visiting or
assigned to work at the site.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the requirement for documentation in FACTS
for all visit and assignment requests in a timely manner.

The Energy OIG agreed to close this recommendation.

Page 11                                                   Status of Recommendations from
                                                          Prior National Defense Authorization
                                                          Act Reports
Appendix B (continued)

Recommendation 8. We recommended that the Director, Office of Security and Emergency
Operations, require that all Energy sites with foreign national visitors or assignees enter
information regarding the visits or assignments into Foreign Access Records Management
System, or a designated central Energy database.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the requirement that all sites having foreign
national visitors or assignees are required to enter information regarding the visits and
assignments into FACTS.

The Energy OIG agreed to close this recommendation.




Page 12                                                Status of Recommendations from
                                                       Prior National Defense Authorization
                                                       Act Reports
Appendix C
                  PRIOR EXPORT CONTROL RELATED REPORTS

•    “The Department of Energy’s Review of Chemical and Biological Export License
     Applications,” DOE/IG-0682, March 2005;

•    “Contractor Compliance with Deemed Export Controls,” DOE/IG-0645, April 2004;

•    “Safeguards Over Sensitive Technology,” DOE/IG-0635, January 2004;

•    “Inspection of Status of Recommendations from the Office of Inspector General’s March
     2000 and December 2001 Export Control Reviews,” INS-L-03-07, May 2003;

•    “The Department’s Unclassified Foreign Visits and Assignments Program,”
     DOE/IG-0579, December 2002;

•    “Follow-up Inspection of the Department of Energy’s Export Licensing Process for
     Foreign National Visits and Assignments,” INS-L-02-06, June 2002;

•    “Inspection of the Department of Energy’s Automated Export Control System,”
     DOE/IG-0533, December 2001;

•    “Inspection of the Department of Energy’s Role in the Commerce Control List and the
     U.S. Munitions List,” INS-O-01-03, March 2001;

•    “Inspection of the Department of Energy’s Export License Process for Foreign National
     Visits and Assignments,” DOE/IG-0465, March 2000;

•    “The Department of Energy’s Export Licensing Process for Dual-Use and Munitions
     Commodities,” DOE/IG-0445, May 1999; and

•    “Report on Inspection of the Department’s Export Licensing Process for Dual-Use and
     Munitions Commodities,” DOE/IG-0331, August 1993.




Page 13                                             Prior Export Control Related Reports
Appendix D




Page 14      Management Comments
Appendix D (continued)




Page 15                  Management Comments
                                                                    IG Report No. DOE/IG-0723

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
